                               Report Template Update = 04-30-05_rev.15




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  EMERGENCY RESPONSE TO 

 HURRICANE KATRINA: USE OF 

 THE GOVERNMENT PURCHASE 

           CARD





                    Daniel R. Levinson

                     Inspector General 


                       May 2007

                     OEI-07-06-00150

                                                           Report Template Update = 04-30-05_rev.15




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
the Department, Congress, and the public with timely, useful, and reliable information
on significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                     Report Template Update = 04-30-05_rev.14




Δ   E X E C U T I V E                       S U M M A R Y                                         



                  OBJECTIVE
                  1.	   To determine whether Government purchase card purchases
                        related to Hurricane Katrina complied with selected requirements
                        for the use of the card.

                  2.	   To identify lessons learned from Hurricane Katrina purchases to
                        assist in the administration of the Government purchase card
                        program during future emergency situations.


                  BACKGROUND
                  The Government purchase card program was designed to save the
                  Government money by avoiding costly paperwork and to expedite the
                  process of making purchases. According to U.S. Bank data, Department
                  of Health and Human Services (HHS) cardholders used Government
                  purchase cards to make 851,511 purchases, totaling approximately
                  $458 million in calendar year (CY) 2005.

                  On September 8, 2005, in response to Hurricane Katrina, Congress
                  authorized agencies to streamline certain purchasing requirements for
                  procurement of supplies or services to support rescue and relief
                  operations. In response, the Office of Management and Budget and
                  HHS issued guidance regarding management controls for implementing
                  temporary changes to normal purchasing requirements. Of the total
                  CY 2005 purchases, HHS officials identified 1,139 purchases totaling
                  $2,109,173 related to Hurricane Katrina for the period of August 28
                  through December 14, 2005. For a stratified sample of 243 of these
                  Hurricane Katrina purchases, we assessed whether the purchases
                  complied with selected requirements for the use of the card. We
                  interviewed 62 cardholders who made these 243 purchases to gather
                  relevant documentation.


                  FINDINGS
                  Fifteen percent of purchases did not comply with selected purchase
                  card requirements. Instances of noncompliance included purchases
                  that lacked proof of approving official review, purchases made by
                  unauthorized persons, and purchases that lacked documentation. Some
                  purchases involved more than one area of noncompliance.




OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD      i
                                                                                      Report Template Update = 04-30-05_rev.14




E X E C U T I V E             S U       M M A R Y


                   Cardholders had concerns regarding the legality and complexity of
                   some purchases and over half of cardholders expressed the need
                   for additional written guidance regarding emergency purchasing
                   procedures. The Office of Inspector General did not find any Hurricane
                   Katrina purchases that were fraudulent. However, some cardholders
                   questioned whether purchases were allowable and desired further
                   interpretations of HHS guidance. Less than half of cardholders
                   reported receiving any written guidance specifically related to
                   Hurricane Katrina purchasing. Cardholders expressed the need for
                   general emergency guidance and more vendor information.
                   Hurricane Katrina purchase data contained inaccuracies. The listing
                   of Hurricane Katrina purchases provided to us did not identify the
                   cardholder name or the account number associated with the purchases.
                   After selecting the sample of 251 purchases, we dropped 8 purchases
                   because, upon contacting cardholders, we found that the purchases either
                   were not Katrina related or duplicated another purchase in the sample.


                   RECOMMENDATIONS
                   We recommend the following to the Assistant Secretary for
                   Administration and Management (ASAM):
                   Provide additional written guidance on emergency purchasing
                   procedures. This guidance should include (1) examples of allowable
                   and unallowable purchases in an emergency, (2) the way to ensure
                   delivery to a location other than the cardholder’s office, and (3) advice
                   on locating and communicating with vendors during an emergency.
                   Require training on emergency purchasing procedures. Such
                   training should be conducted for cardholders and approving officials
                   initially when a Government purchase card is issued and during annual
                   refresher training. Agencies could consider conducting mock scenarios
                   in which cardholders are faced with making within a very short
                   timeframe purchasing decisions on items that are significantly different
                   from those normally requested.

                   Develop a tracking system for monitoring Government purchase card
                   purchases during emergency situations. This system should detail
                   recordkeeping procedures on how to log, track, and report emergency
                   purchases to ASAM, including cardholder name, exact vendor name,
                   and exact dollar amount, so that the data can be used for the purpose of
                   oversight among multiple users. The system should be communicated


 OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     ii
                                                                                      Report Template Update = 04-30-05_rev.14




E X E C U T I V E             S U       M M A R Y


                   to Government purchase card program coordinators and cardholders
                   before purchases are made in support of an emergency.


                   AGENCY COMMENTS
                   ASAM concurred with our recommendations. With regard to providing
                   written guidance on emergency purchasing procedures, ASAM will add
                   a separate appendix to existing purchase card guidance dedicated to the
                   use of purchase cards during emergencies and develop a “quick
                   reference” guide to aid cardholders during emergency and non-
                   emergency situations. With regard to required training on emergency
                   purchasing procedures, ASAM will revise the HHS University purchase
                   card training course to encompass instructional content, mock
                   scenarios, and roles and responsibilities designed specifically for
                   emergency situations. Finally, ASAM is exploring the feasibility of
                   building a single system for processing and reporting purchase card
                   spending during emergency and nonemergency situations.

                   This evaluation was conducted in conjunction with the President’s
                   Council on Integrity and Efficiency (PCIE) as part of its examination of
                   relief efforts provided by the Federal Government in the aftermath of
                   Hurricanes Katrina and Rita. As such, a copy of the report has been
                   forwarded to the PCIE Homeland Security Working Group, which is
                   coordinating Inspectors General reviews of this important subject.




 OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    iii
                                                                      Report Template Update = 04-30-05_rev.15




Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   Some purchases did not comply with selected requirements . . . . . 7 


                   Cardholders had concerns regarding the legality and complexity 

                   of some purchases and expressed the need for guidance . . . . . . . . . 9 


                   Purchase data contained inaccuracies . . . . . . . . . . . . . . . . . . . . . . 12 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   A: 	Purchases That Did Not Comply With Selected Purchase 

                       Card Requirements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                   B: 	Confidence Intervals for Purchases That Did Not Comply 

                       With Selected Purchase Card Requirements . . . . . . . . . . . . . . 17 


                   C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                                                                                     Report Template Update = 04-30-05_rev.14




Δ   I N T R O D U C T I O N                                       



                  OBJECTIVE
                  1.	   To determine whether Government purchase card purchases
                        related to Hurricane Katrina complied with selected requirements
                        for the use of the card.

                  2.	   To identify lessons learned from Hurricane Katrina purchases to
                        assist in the administration of the Government purchase card
                        program during future emergency situations.


                  BACKGROUND
                  Hurricane Katrina hit the Gulf Coast on August 29, 2005. On
                  September 8, 2005, Public Law 109-62 authorized agencies to
                  streamline certain purchasing requirements for procurement of supplies
                  or services to support rescue and relief operations. On the same day,
                  Senators Grassley, Collins, and Lieberman wrote a letter to Senate and
                  House of Representatives leadership raising questions about whether
                  this action might lead to fraud or other questionable purchases.

                  According to U.S. Bank data, the Department of Health and Human
                  Services (HHS) cardholders used Government purchase cards to make
                  851,511 purchases, totaling approximately $458 million in calendar year
                  2005. HHS cardholders reported to the Office of Acquisition
                  Management and Policy (OAMP) that they made 1,139 purchases
                  totaling $2,109,173 related to Hurricane Katrina for the period of
                  August 28 through December 14, 2005.

                  In a prior study, “International Merchant Purchase Authorization Card
                  Program: Review of Calendar Year 2001 Transactions”
                  (OEI-07-02-00510), which examined purchases using the Government
                  purchase card, the Office of Inspector General (OIG) identified
                  44 percent of purchases that did not comply with requirements for the
                  use of the card. In addition, cardholders either did not follow
                  established purchasing procedures or did not know or understand the
                  procedures.
                  Government Purchase Card Program Guidance
                  The Government purchase card program was designed in 1989 to save
                  the Government money by avoiding costly paperwork and to expedite
                  the process of making purchases. To protect against unauthorized or
                  fraudulent use of purchase cards, the “Treasury Financial Manual,”
                  Vol. 1, Part 4, section 4525, requires each agency to have its own


OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     1
                                                                                        Report Template Update = 04-30-05_rev.14




I N T R O D        U C T      I O N


                    internal procedures for using purchase cards. When the Government
                    purchase card program came into effect, HHS issued guidelines for its
                    agencies to use in developing their individual operating procedures.1
                    HHS guidelines require that cardholders take precautions to prevent
                    others from using their cards, that approving officials review purchases
                    prior to forwarding the monthly statement for payment, and that
                    purchasers maintain a paper trail that will support all purchases and be
                    available to anyone auditing the process. In addition, cardholders
                    should instruct vendors not to charge sales tax on purchases. HHS
                    guidelines require that agency procedures not be less restrictive than
                    departmental guidelines. Table 1 shows the date of issuance of
                    Government purchase card guidance that was in effect for the
                    Hurricane Katrina-related purchases reviewed in this study.



                         Table 1: Issue Dates of Agency Procedures in Effect During
                         Hurricane Katrina

                                                                                                             Guidance Issue
                         HHS Agency
                                                                                                                       Date
                         Centers for Disease Control and Prevention                                            October 2004

                         Food and Drug Administration                                                              July 2005

                         Health Resources and Services Administration                                          January 2004

                         National Institutes of Health                                                         February 2002

                         Program Support Center                                                                    July 2003

                         Substance Abuse & Mental Health Services Administration                                August 2001
                          Source: Office of Inspector General, 2006.


                    In addition to HHS guidelines and agency operating procedures, three
                    other documents contain guidance pertaining to Government purchase
                    cards: the Federal Acquisition Regulation (FAR); Title 5, section
                    1315.12 of the Code of Federal Regulations; and the contract between
                    the Government and U.S. Bank (the card-issuing bank for HHS).
                    Government purchase cards are generally used for small purchases, also


                       1 “Policy Guidelines for the Use of U.S. Government Bankcards,” Department of Health
                    and Human Services, September 12, 1989. The 1989 guidelines were in effect during the
                    time of this study. Subsequent to our review, in May and November 2006, the Assistant
                    Secretary for Administration and Management issued “Purchase Card Guide,” Versions 1
                    and 2.



 OEI-07-06-00150    EMERGENCY RESPONSE    TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD      2
                                                                                       Report Template Update = 04-30-05_rev.14




I N T R O D        U C T      I O N


                    called micro-purchases. The FAR defines a micro-purchase as an
                    acquisition of supplies or services not exceeding $2,500.2
                    Appendix B of the Office of Management and Budget (OMB) Circular
                    A-123 states that all Government purchase card cardholders must be
                    trained prior to appointment and that they must take refresher
                    training, at a minimum, every 3 years. The training must provide
                    general information on how to use a charge card and must inform
                    cardholders of Federal procurement laws and regulations, agency
                    procedures, and proper card use.
                    Guidance Related to Hurricane Katrina Purchases
                    Section 101(2) of the Second Emergency Supplemental Appropriations
                    Act To Meet Immediate Needs Arising From the Consequences of
                    Hurricane Katrina, 2005 (the Act) (Public Law 109-62), enacted on
                    September 8, 2005, raised the micro-purchase threshold from $2,500 to
                    $250,000 for procurement of supplies or services to support Hurricane
                    Katrina rescue and relief operations.

                    On September 13, 2005, OMB issued a memorandum to Federal chief
                    acquisition officers and chief financial officers that outlined
                    management controls for implementing the increased micro-purchase
                    threshold. The guidance applied to all micro-purchases, but made
                    specific references to purchases made with the Government purchase
                    card. The guidance stated that there was no blanket increase of
                    cardholder authority: each agency had to identify in writing those
                    individuals who were authorized to use the higher threshold and those
                    individuals had to be working directly on Hurricane Katrina-related
                    acquisitions. Agencies were required to notify U.S. Bank to raise
                    monthly and single purchase limits and ensure that cardholders had
                    sufficient training for the increased limit. The guidance also stated that
                    agencies were required to establish and communicate policies and
                    procedures for determining whether a transaction was in support of
                    Hurricane Katrina rescue and relief operations and therefore allowable
                    under section 101(2) of the Act.




                      2 At the time of our review, section 2.101(b) of the FAR stated that the micro-purchase
                    threshold was $2,500 except for certain construction purchases and purchases to support a
                    contingency operation or to facilitate defense against, or recovery from, nuclear, biological,
                    chemical, or radiological attack. Federal Acquisition Circular 2005-13, issued on
                    September 28, 2006, amended the FAR to raise the micro-purchase threshold to $3,000.



 OEI-07-06-00150    EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     3
                                                                                       Report Template Update = 04-30-05_rev.14




I N T R O D        U C T     I O N


                    OAMP issued a memorandum on September 19, 2005, outlining the
                    responsibilities for Hurricane Katrina purchasing for agency heads.
                    The memorandum emphasized that increasing the micro-purchase
                    threshold was not the same as increasing purchase card limits, and
                    reiterated the September 13, 2005, OMB guidance regarding
                    management controls for implementing the increased micro-purchase
                    threshold. On September 21, 2005, OAMP issued guidance to
                    cardholders deployed along the Gulf Coast. The guidance stressed that
                    purchases must still be made “in accordance with the policies and
                    procedures of the cardholder’s operating division” and that “receipts and
                    records must be maintained as directed and to the extent practicable.”
                    On October 3, 2005, OMB issued guidance to Federal agencies that
                    returned the micro-purchase threshold to the pre-Hurricane Katrina
                    level of $2,500.
                    Assistance to HHS Cardholders During Hurricane Katrina
                    OAMP established an operations center staffed by procurement officials
                    12 hours per day for approximately 3 weeks following Hurricane
                    Katrina. The purpose of the operations center was to respond to
                    questions and interpret guidance on Hurricane Katrina Government
                    purchase card purchases, particularly the OAMP memoranda described
                    above. Personnel in the operations center also made Government
                    purchase card purchases based on agency requests.
                    Previous Office of Inspector General Work
                    OIG completed a study of the Government purchase card program
                    across HHS entitled “International Merchant Purchase Authorization
                    Card Program: Review of Calendar Year 2001 Transactions,”
                    (OEI-07-02-00510). This study found that 44 percent of purchases did
                    not fully comply with requirements for using the Government purchase
                    card, as described in departmental and agency guidance. This included
                    lack of approving official review, lack of purchase documentation, and/or
                    lack of object class code. These results were based on projections using
                    a random sample of 400 purchases and a review of internal controls.


                    METHODOLOGY
                    We requested and received from OAMP a listing of each agency’s
                    self-reported Government purchase card purchases related to Hurricane
                    Katrina for the period August 28 to December 14, 2005 (1,139 purchases
                    totaling $2,109,173). We excluded all purchases less than $25 because
                    of low risk to HHS and transaction fees, because they did not represent


 OEI-07-06-00150    EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     4
                                                                                                Report Template Update = 04-30-05_rev.14




I N T R O D               U C T          I O N


                             actual purchases (77 charges totaling $4,133.46). This left
                             1,062 purchases totaling $2,105,039.52.

                             To produce estimates of both the amount and percentage of purchases
                             that did not comply with requirements for using the Government
                             purchase card, we selected a stratified sample of 251 purchases in
                             4 strata. Prior to selecting the sample, we examined the entire
                             population for purchases that appeared atypical or questionable (e.g., a
                             purchase that involved an unfamiliar vendor) and combined those with
                             all purchases over $10,000. This combination created stratum 4. There
                             were a total of 76 purchases in stratum 4—38 were purchases under
                             $10,000 that appeared to be atypical or questionable, and 38 were
                             purchases over $10,000. The remaining purchases were then stratified
                             by dollar amount into strata 1, 2, and 3. We dropped 8 purchases from
                             the sample after we learned during fieldwork that they were reported as
                             Hurricane Katrina purchases in error, leaving 243 purchases. A
                             description of the 4 strata, with their population and sample sizes, is
                             shown in Table 2 below.

 Table 2: Population and Sample Sizes

                                                                        Population                                      Adjusted      Adjusted
 Strata Definition                                                                              Sample Size
                                                                              Size                                Population Size   Sample Size

 1. Purchases between $25.00 and $499.99                                            544                     40               544             40

 2. Purchases between $500.00 and $2,499.99                                         341                     60               341             60

 3. Purchases between $2,500.00 and $9,999.99                                       101                     75                98             73
 4. Purchases over $10,000.00 and purchases that
    appeared atypical or questionable                                                 76                    76                70             70


 Total                                                                           1,062                     251             1,053             243

 Source: Office of Inspector General, 2006.

                             We used U.S. Bank data for all HHS Government purchase card
                             purchases occurring between August 28 and December 14, 2005, to
                             determine the name and location of each cardholder associated with the
                             sampled purchases. The majority of cardholders that made Hurricane
                             Katrina purchases were located in the Atlanta, Georgia, and
                             Washington, DC, metro areas.

                             We conducted onsite visits with cardholders in these locations,
                             gathering documentation to determine compliance with 3 requirements
                             for using the purchase card: (1) evidence that the purchase was made
                             by the authorized cardholder, (2) sufficient documentation to support

 OEI-07-06-00150             EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD        5
                                                                                       Report Template Update = 04-30-05_rev.14




I N T R O D        U C T     I O N


                    the purchase, and (3) evidence of approving official review. We also
                    conducted structured interviews with cardholders. For cardholders in
                    locations other than Atlanta, Georgia, and Washington, DC, or those
                    unavailable at the time of our onsite visits, we collected documents via
                    mail and conducted telephone interviews. In total, we interviewed
                    62 cardholders regarding the 243 purchases, representing a 100-percent
                    response rate. Because some cardholders did not have complete
                    information on the decisionmaking process surrounding the purchases,
                    we also interviewed other agency officials as appropriate.

                    For this report, the sampling frame was comprised of purchases made
                    by HHS cardholders during our review period. Because the sampling
                    unit was a purchase and the cardholder could have made several
                    purchases, our estimates are of the population of purchases and not
                    cardholders.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-06-00150    EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     6
                                                                                         Report Template Update = 04-30-05_rev.14




F   I N D I N G        S
Δ       F I N D I N G S 


                                                             Fifteen percent of purchases did
    Fifteen percent of purchases did not comply              not comply with HHS guidelines
      with selected purchase card requirements               and agency procedures related to
                                                             three key elements.3 The
                      elements of noncompliance include lack of approving official review, use
                      of Government purchase cards by unauthorized persons, and
                      insufficient purchase documentation. The most prevalent element of
                      noncompliance was those purchases lacking approving official review;
                      however, some purchases involved more than one element of
                      noncompliance. More than one-quarter of the dollar amount ($550,116
                      of $2,105,039) of Hurricane Katrina purchases did not comply with
                      purchase card requirements. Because some of these purchases involved
                      more than one element of noncompliance, an estimate of the population
                      is given for purchases that lacked approving official review, but only the
                      sample data are given for the other two elements of noncompliance.
                      Appendix A provides the number of purchases in our sample for each
                      element of noncompliance. Appendix B provides the confidence
                      intervals for the projected number and dollar amount of purchases that
                      did not comply with selected purchase card requirements. These
                      instances of noncompliance are not unique to Hurricane Katrina
                      purchases (see the description of our prior study on page 4); however,
                      we note that some Hurricane Katrina purchases also included the
                      following aspects: high-dollar requests, unfamiliar vendors, atypical
                      items, and remote cardholders.
                      Purchases lacked proof of approving official review
                      For 13 percent of purchases totaling $483,242, cardholders either did not
                      obtain or maintain evidence of approving official review, even though this
                      review was one of the fundamental methods of oversight in the
                      Government purchase card program. HHS guidelines require approving
                      officials to review accounts prior to forwarding information to their
                      respective finance offices for payment. Agency procedures for all of the
                      agencies represented in our sample provide greater specificity on
                      approving official review, including: (1) what approving officials must do
                      (i.e., reviewing invoices, packing slips, or other appropriate purchase


                        3 HHS guidelines broadly define requirements of the Government purchase card
                      program. Agency procedures operationalize these requirements by further describing
                      administrative responsibilities (e.g., maintaining specific documents to support purchases).
                      Hereinafter, we refer to purchase card requirements to include both HHS guidelines and
                      agency procedures.



    OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     7
                                                                                         Report Template Update = 04-30-05_rev.14




F   I N D I N G        S


                      documentation) and (2) how they must do it (i.e., signing the bottom of
                      card statements or using electronic automated systems to document
                      review). Approving officials maintain the integrity of the Government
                      purchase card program by monitoring cardholder actions and ensuring the
                      proper use of the Government purchase card. A lack of approving official
                      review may increase the likelihood that improper or fraudulent purchases
                      will go undetected.
                      Unauthorized persons made Government purchase card purchases
                      For 16 of the 243 sampled purchases (8 of which also lacked approving
                      official review), four individuals other than the authorized cardholders
                      made the purchases.4 HHS guidelines expressly prohibit anyone other
                      than the cardholder from making purchases.5 When we requested
                      detailed information regarding these purchases, the authorized
                      cardholders were unable to provide complete information about the
                      purchases, including the necessity of the purchase and vendor selection.
                      Examples of purchases made by unauthorized persons included:
                      15 printers ($7,350 total), a business card scanner ($220), magnetized
                      signs ($290), and computer software ($535). In addition, one of the
                      unauthorized persons paid sales tax totaling $192.77 on three
                      purchases, which should not have been paid.
                      Purchases lacked documentation
                      For 9 of the 243 purchases (3 of which also lacked approving official
                      review), cardholders could not provide sufficient documentation
                      (e.g., invoice, receipt) to support the purchases.6 HHS guidelines state
                      the need to maintain a paper trail “. . . that will support all purchases
                      and be available to anyone auditing the process.”7 Agency procedures
                      implement this by requiring cardholders or approving officials to obtain
                      charge slips, cash register receipts, packing slips, or invoices or to
                      include a statement in the files explaining why such documentation
                      does not exist and what steps were taken to collect the missing
                      documentation.




                        4 Because of the low number of cases, we do not project these purchases to the universe.
                        5 “Policy Guidelines for the Use of U.S. Government Bankcards,” Department of Health
                      and Human Services, September 12, 1989.
                        6 Because of the low number of cases, we do not project these purchases to the universe.
                        7 “Policy Guidelines for the Use of U.S. Government Bankcards,” Department of Health
                      and Human Services, September 12, 1989.



    OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     8
                                                                                           Report Template Update = 04-30-05_rev.14




  F   I N D I N G        S


                        More than half of cardholders (36 of 62) arranged shipments of
                        purchases to alternative locations. Of those 36 cardholders, 15 did not
                        require the person who received the purchase to send packing slips or
                        invoices back to the cardholder. In some cases, receivers either e-mailed
                        or telephoned the cardholder to confirm receipt. In other instances,
                        cardholders made an assumption that if the receiver did not indicate
                        otherwise, the person received the item. For example, one cardholder
                        purchased a $1,200 printer and arranged for it to be shipped to an
                        out-of-State hotel room, where an epidemiologist was temporarily
                        stationed. The cardholder attempted via cellular telephone to verify
                        that the item had been received; however, the individual was not
                        located and delivery of the item was not confirmed. Ultimately, the
                        cardholder had no proof that the item was received.



                                                          We did not find any Hurricane
  Cardholders had concerns regarding the legality         Katrina purchases that were
  and complexity of some purchases and over half          fraudulent. However, some
expressed the need for additional written guidance        purchases that cardholders made
     regarding emergency purchasing procedures            raised concerns regarding the
                                                          legality of the purchases and other
                     purchases demonstrate the complexity of making purchases in an
                     emergency situation. Finally, many cardholders expressed the need for
                     additional written guidance regarding emergency purchasing
                     procedures.
                        Cardholders had concerns regarding the legality of some purchases
                        Food for call center volunteers: A cardholder purchased food for
                        volunteers staffing a call center during the initial weekend following
                        Hurricane Katrina. Because the cardholder was uncertain of the
                        legality of making food purchases and the purchases needed to be
                        accomplished quickly, the cardholder sought legal guidance before
                        proceeding.

                        Stress balls, pens, and shirts: Stress balls were purchased for
                        emergency responders, pens were purchased for call center employees,
                        and shirts were purchased to identify Federal staff deployed to the
                        affected area. The cardholder did not seek legal guidance on these
                        purchases before making them; the cardholder sought legal guidance
                        only as a result of a Government purchase card audit. By that time, the
                        stress balls, pens, and shirts had largely been distributed.



      OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD     9
                                                                                         Report Template Update = 04-30-05_rev.14




F   I N D I N G        S


                      Other purchases demonstrate the complexity of making purchases in an
                      emergency situation
                      Cardholders described their Hurricane Katrina purchasing experience
                      as “hectic” and “responding to immediate needs.” Thirty-one percent of
                      cardholders with whom we spoke (19 of 62) characterized purchasing for
                      Hurricane Katrina as “significantly different than normal operations.”
                      The following three purchases reported to us by cardholders illustrate
                      challenging circumstances that occurred.

                      Transportation of nurses: From a temporary hospital in Mississippi
                      established to assist Hurricane Katrina evacuees, bus service was
                      arranged to return nurses to their regular duty station in North
                      Carolina. However, the bus driver transported them to a different
                      location than what was contracted. The Government did not incur a
                      loss because of this change, but the purpose of the transportation for
                      which the contract was authorized was not fulfilled as ordered, creating
                      confusion over how much was spent and for what purpose.

                      Lease/purchase of boat: A boat was quickly needed to collect fish and
                      shellfish samples from lakes in Louisiana. The cardholder provided
                      documentation to us indicating confusion about whether the agency was
                      leasing or buying the boat from the vendor. Ultimately, the agency
                      settled with the vendor whereby the title of the boat and related
                      equipment were transferred to the agency for a lump sum payment of
                      $5,000.

                      Travel and per diem: A cardholder wrote convenience checks8 to two
                      scientific grantees to provide for travel expenses and 10 days’ per diem
                      in the Washington, DC, metro area so that research could continue after
                      their New Orleans, Louisiana, laboratory was destroyed. The
                      cardholder explained to us that the grantees did not have access to bank
                      accounts immediately after the hurricane, so they could not receive
                      these funds via electronic funds transfer. Writing convenience checks
                      made payable to individuals is an atypical situation; however, rather
                      than the grantees incurring expenses and then seeking reimbursement,
                      these individuals received “cash” upfront for expenses that they may not
                      have incurred. Also of concern, the cardholders’ records that provided a

                        8 Convenience checks are a vehicle of payment to be used only in rare circumstances,
                      such as when a merchant cannot accept purchase cards. There are transaction fees
                      associated with the use of convenience checks. Agencies differ on the program guidance
                      that applies to convenience checks (e.g., the types of purchases that can be made with
                      convenience checks).



    OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    10
                                                                                      Report Template Update = 04-30-05_rev.14




F 	I N D I N G 
S


                   breakdown of expenses ($440 for travel and $1,660 for per diem, for a
                   total of $2,100 for each scientist) did not equal the amounts of the
                   checks written to the grantees.
                   Over half of cardholders expressed the need for additional written guidance
                   regarding emergency purchasing procedures
                   Despite a 3-week presence at HHS headquarters by two individuals
                   designated as the key contact persons for Hurricane Katrina purchasing,
                   only one sampled cardholder was aware of and sought purchasing advice
                   from these experts. Had cardholders been aware of these contact persons,
                   cardholders could have used the expertise of the designated persons to
                   interpret HHS guidelines. Fifty-two percent of cardholders with whom we
                   spoke (32 of 62) would have liked to receive additional written guidance
                   concerning emergency purchasing procedures. For Hurricane Katrina
                   purchases, one-third of cardholders (21 of 62) noted that there were
                   changes from established purchase card requirements. For example,
                   cardholders described increased micro-purchase or Government purchase
                   card spending limits, the waiving of merchant cost comparison
                   requirements, and the purchasing of items that are not usually acquired
                   with the card (e.g., car rental). Less than half of cardholders reported
                   receiving any written guidance specifically related to Hurricane Katrina
                   purchasing (e.g., memoranda from OMB and/or OAMP), and only one
                   cardholder reported receiving training specific to Hurricane Katrina
                   purchasing. In our interviews, cardholders expressed the need for further
                   guidance in the following areas:

                       •	   General emergency guidance. When asked what content areas
                            should be included in written guidance on emergency purchasing
                            procedures, 15 cardholders expressed interest in receiving
                            additional information on how the processes for emergency
                            purchasing differ from those for normal purchasing. Nine
                            cardholders specifically requested a list of items that can and
                            cannot be purchased during an emergency.

                            Underscoring the expressed need for general emergency guidance,
                            10 cardholders reported that requests for some purchases made
                            them feel uncomfortable, and 6 cardholders made at least some of
                            these purchases. As an example, one cardholder was requested to
                            purchase board games and televisions for a recreational area
                            within a temporary hospital. This cardholder decided not to make
                            the purchase. The temporary hospital went unused.



 OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    11
                                                                                      Report Template Update = 04-30-05_rev.14




F 	I N D I N G      S


                        •	   Vendor information. As previously mentioned, some cardholders
                             characterized their purchasing for Hurricane Katrina as
                             “significantly different than normal operations.” For example,
                             nine cardholders cited that they had to purchase items that were
                             significantly different from their regular purchasing (e.g.,
                             telephone calling cards, a commercial dishwasher). Sixteen
                             cardholders faced challenges with regard to locating a vendor
                             that could deliver the requested item within the specified
                             timeframe. Cardholders also mentioned challenges with vendors
                             accepting the Government purchase card as a form of payment
                             and honoring the Federal Government’s tax-exempt status.



                                                        OAMP formed a departmental
  Hurricane Katrina purchase data contained
                                                        Hurricane Katrina Acquisition
                               inaccuracies             Working Group to ensure prudent
                   stewardship of taxpayer funds in support of rescue and relief efforts. To
                   meet the information needs of various Government agencies, OAMP
                   directed agency Government purchase card program coordinators to
                   report Hurricane Katrina purchases on a weekly basis. For cardholders
                   supported by the Program Support Center, the first request for this
                   information came on November 3, 2005, 2 months after Hurricane
                   Katrina made landfall.

                   We found that the listing of purchases contained inaccuracies. After
                   selecting the sample of 251 purchases, we dropped 8 because, upon
                   contacting cardholders, we found that the purchases either were not
                   Katrina related or duplicated another purchase in the sample. For
                   example, a purchase of $822 was originally in the universe of Hurricane
                   Katrina purchases. However, the purchase was for a training class
                   related to procurement; it was not in support of or response to
                   Hurricane Katrina. Additionally, the agency-reported listing indicated
                   “Dalmation Systems” as the vendor name for another purchase. After
                   attempting to verify this with U.S. Bank data, we found the vendor
                   name was actually “Datamation Systems.” Similarly, a vendor
                   identified as “Café Express.com” was actually “Cafepress.com,” a
                   company that sold customized apparel.

                   Although agencies provided Government purchase card purchase data
                   as OAMP requested, the information was insufficient for the purpose of
                   oversight among multiple users. OAMP did not require the cardholder
                   to identify the cardholder name or account number associated with each

 OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    12
                                                                                         Report Template Update = 04-30-05_rev.14




F   I N D I N G        S


                      purchase. To contact cardholders for this evaluation, we had to match
                      the listing with U.S. Bank data for all HHS Government purchase card
                      purchases. This matching process proved difficult because the listing of
                      purchases contained incorrect amounts and incorrect vendor names, the
                      primary fields available to identify cardholders.

                      We contacted the agency Government purchase card program
                      coordinators to identify the cardholders associated with some purchases.
                      One agency program coordinator was unable to provide accurate
                      information. This agency program coordinator attributed five separate
                      purchases, each in the amount of $1,234.15, to Dell Computer to a
                      single cardholder. When we contacted this cardholder, the cardholder
                      did not recognize the purchases, so we recontacted the agency program
                      coordinator. The coordinator then provided the name of another
                      cardholder. This cardholder indicated making only two of the five
                      purchases of $1,234.15. We then consulted the U.S. Bank data for all
                      HHS Government purchase card purchases occurring on the reported
                      date and found that yet another cardholder in the same agency had
                      made one purchase of $1,234.15 and a second purchase for twice that
                      amount ($2,468.30).




    OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    13
                                                                                     Report Template Update = 04-30-05_rev.14




Δ   R E C O M M E N D A T I O N S                                                        





                  Because of the urgency of the purchases requested of cardholders for
                  Hurricane Katrina, cardholders had to act swiftly to provide needed
                  supplies or services to emergency responders. In many cases,
                  cardholders were largely untrained in, and did not report receiving
                  guidance pertaining to, Hurricane Katrina purchasing. In addition, the
                  listing of HHS Hurricane Katrina purchases contained inaccuracies.

                  This study, similar to our earlier review of the calendar year 2001 HHS
                  Government purchase card program, found that some cardholders made
                  purchases that did not comply with purchase card requirements,
                  specifically that they made purchases lacking approving official review
                  and purchase documentation. Additionally, unauthorized persons made
                  purchases in some instances. Noncompliance with purchase card
                  requirements increases the potential risk of fraud or misuse.

                  Some cardholders raised concerns regarding the legality and complexity
                  of some Hurricane Katrina purchases. In addition, over half of
                  cardholders expressed the need for additional emergency purchasing
                  guidance. Our findings identify areas of improvement for future
                  emergency purchasing situations. We therefore recommend the
                  following to the Assistant Secretary for Administration and
                  Management (ASAM):
                  Provide additional written guidance on emergency purchasing
                  procedures
                  This guidance should include (1) examples of allowable and unallowable
                  purchases in an emergency, (2) the way to ensure delivery to a location
                  other than the cardholder’s office, and (3) advice on locating and
                  communicating with vendors during an emergency.
                  Require training on emergency purchasing procedures
                  Such training should be conducted for cardholders and approving
                  officials initially when a Government purchase card is issued and
                  during annual refresher training. Agencies could consider conducting
                  mock scenarios in which cardholders are faced with making within a
                  very short timeframe purchasing decisions on items that are
                  significantly different from those normally requested.




OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    14
                                                                                         Report Template Update = 04-30-05_rev.14




R   E C O        M M E N D A T             I O N              S


                      Develop a tracking system for monitoring Government purchase card
                      purchases during emergency situations
                      This system should detail recordkeeping procedures on how to log, track,
                      and report emergency purchases to ASAM, including cardholder name,
                      exact vendor name, and exact dollar amount, so that the data can be used
                      for the purpose of oversight among multiple users. The system should be
                      communicated to Government purchase card program coordinators and
                      cardholders before purchases are made in support of an emergency.



                      AGENCY COMMENTS
                      ASAM concurred with our recommendations. With regard to providing
                      written guidance on emergency purchasing procedures, ASAM will add a
                      separate appendix to existing purchase card guidance dedicated to the use
                      of purchase cards during emergencies and develop a “quick reference”
                      guide to aid cardholders during emergency and nonemergency situations.
                      With regard to required training on emergency purchasing procedures,
                      ASAM will revise the HHS University purchase card training course to
                      encompass instructional content, mock scenarios, and roles and
                      responsibilities designed specifically for emergency situations. Finally,
                      ASAM is exploring the feasibility of building a single system for processing
                      and reporting purchase card spending during emergency and
                      nonemergency situations. For the full text of ASAM’s comments, please
                      see Appendix C.




    OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    15
                                                                                                 Report Template Update = 04-30-05_rev.14




Δ   A P P E N D I X                               ~           A            




    Purchases That Did Not Comply With Selected Purchase Card Requirements


                                                           Description of Problem(s)                        Number of Purchases

    Purchases That Lacked Proof of Approving Official Review                                                                  36

    Purchases Made by an Unauthorized Person                                                                                  16

    Purchases That Lacked Documentation                                                                                        9

    Purchases That Lacked Proof of Approving Official Review and Were
                                                                                                                              8*
    Made by an Unauthorized Person


    Purchases That Lacked Proof of Approving Official Review and Lacked
                                                                                                                              3*
    Documentation

    *These numbers include two problems and are also included in the single problem counts.
    Source: Office of Inspector General analysis of purchases, 2006.




OEI-07-06-00150           EMERGENCY RESPONSE       TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    16
                                                                                                            Report Template Update = 04-30-05_rev.14




     A    P    P E N D             I X          A
 Δ            A P P E N D I X                               ~            B


The following estimates are given at the 95-percent confidence level.


Confidence Intervals for Purchases That Did Not Comply With Selected Purchase Card
Requirements

                                                 Weighted Percentage of Purchases                            Weighted Dollar Amount of Purchases


                                              Point Estimate             Confidence Interval Point Estimate                       Confidence Interval


Purchases That Did Not Comply With
                                                       15.5%                      9.3% - 21.7%                 $550,116          $507,670 - $592,562
Purchase Card Requirements


Purchases That Lacked Proof of
                                                       12.7%                      6.8% - 18.6%                 $483,242          $449,128 - $517,356
Approving Official Review

Source: Office of Inspector General analysis of purchases, 2006.




         OEI-07-06-00150             EMERGENCY RESPONSE      TO    H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD           17
                                                                                     Report Template Update = 04-30-05_rev.14




Δ    A P P E N D I X               ~              C

    Agency Comments




OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    18
                                                                                         Report Template Update = 04-30-05_rev.14




A   P   P E N D       I X     ~      C           





    OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    19
                                                                                      Report Template Update = 04-30-05_rev.14




ΔA   A PC EK N N D OI W
     P
                        L E D G M E N T S
                      X ~ A

                   This report was prepared under the direction of Brian T. Pattison,
                   Regional Inspector General for Evaluation and Inspections in the
                   Kansas City regional office, and Gina C. Maree, Deputy Regional
                   Inspector General.

                   Tricia Fields served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Kansas City regional
                   office who contributed to the report include Elander Phillips and Dennis
                   Tharp; other regional and central office staff who contributed include
                   Mary-Elizabeth Harmon, Mark Richardson, and Barbara Tedesco.




 OEI-07-06-00150   EMERGENCY RESPONSE   TO   H U R R I C A N E K AT R I N A : U S E   OF THE   GOVERNMENT PURCHASE CARD    20
